Via Electronic Filing

September 17, 2021

Danny Bickell
Deputy Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 21-31, Fast Auto Loans, Inc. v. Joe Maldonado, et al

Dear Mr. Bickell:
I write to request a thirty-day unopposed extension of the time to file a response to the
petition for certiorari in this case. The response is currently due on September 24, 2021, and I
respectfully request that the deadline be extended to and including October 24, 2021. The
petitioner consents to this request. There is good cause for this request. Because I was not
retained in this case until yesterday, my colleagues and I need additional time to study the
record, research the legal issues, and prepare a brief in opposition. Additionally, my colleagues
and I have multiple upcoming deadlines in the coming week that would make it impossible to
prepare a brief absent an extension, including an oral argument in Hood v. American Auto
Care, No. 20-1157 in the Tenth Circuit on September 20; an amicus brief in New York State
Rifle and Pistol Association v. Bruen, No. 20-843 in the Supreme Court due on September 21;
a reply brief in Schell v. Volkswagen, No. 20-17480 in the Ninth Circuit due on September 22; a
reply brief in Mey v. DirecTV, No. 21-1274 in the Fourth Circuit due on September 23; and a
reply brief in Cohen v. Apple, No. 20-17307 in the Ninth Circuit due on September 23. For these
reasons, my colleagues and I will require additional time to prepare an adequate response to
the petition. A thirty-day extension will allow us to balance these other responsibilities with our
obligations in this case.
Thank you for your attention to this matter.
Sincerely,

cc:

Counsel of Record

Gupta Wessler PLLC
2001 K Street, NW, Suite 850 North, Washington, DC 20006
P 202 888 1741 F 202 888 7792
guptawessler.com

Deepak Gupta

